                                   UNITED STATES DEPARTMENT OF EDUCATION 

                                                OFFICE OF INSPECTOR GENERAL 

                                                     KANSAS CITY OFFICE 


                                              8930 Ward Parkway, Suite 2401
                                             Kansas City, Missouri 64114-3302

 AUDIT SERVICES                                                                                                  INVESTIGATION SERVICES
                                                  Telephone (816) 268-0500
FAX (816) 823-1398                                                                                                   FAX (816) 268-0526



                                                                                                   Date: January 15,2004

   Ann Hart, Ph.D.
   President
   University ofNew Hampshire
   Room 201 Thompson Hall
   2 Garrison Avenue
   Durham, New Hampshire 03824

   Dear Dr. Hart:

   This is our final.audit report~ Control NumberED-OIG/A07-DOOOl, entitled Auditofthe Talent 

   Search Program at the University of New Hampshire. The objective of our audit was to 

   determine if the University of New Hampshire administered the Talent Search program in 

   accordance with the law (Higher Education Act of 1965, Section 402B) and specific Talent, 

   Search regulations governing the documentation ofpcirticipant eligibility. Thereport 

   incorporates the comments you provided to us on June 23,2003, in response to our draft audit 

   report. The response indicates that you did not concur with our finding or recommendations. 

   After reviewing your response, we edited our finding and recommendations. We have 

   summarized your comments after our finding and recommendation and your full response is 

   provided as an attachment to this letter. 


                                                     AUDIT RESULTS

   The University of New Hampshire (the University) did not always administer its Talent Search 

   grant in accordance with applicable regulations or its Departmental agreement. Specifically, the 

   University could not provide documentation for all services it claims to have provided to 

   participants. 


   For the grant period September 1, 2001, through August 31, 2002, we estimate that the
   University may have served fewer than the 1,150 participants it was funded to serve. We
   recommend that the University improve established procedures to ensure that only those




             Our mission is to ensure equal access to education and to promote educational exceUence throughout the Nation.
Final Audit Report                                                                             ED-OIG/A07-D0001


participants receiving eligible services are counted as Talent Search participants and that those
services are properly documented.

Regulatory Definitions and Requirements for Talent Search Grantees

On September 1, 1999, through an amendment to the original Partnership Agreement, the
University and the Department agreed that the grant was to serve 1,150 participants (the target
population). This is more than the minimum 600 participants required to be served per the
Talent Search regulation in 34 C.F.R. § 643.32(b).

Participants must meet two conditions according to 34 C.F.R. § 643.7

           (b) Other definitions . . . Participant means an individual who—
           (1) Is determined to be eligible to participate in the project . . . ; and
           (2) Receives project services designed for his or her age or grade level.

Department officials offered us examples of adequate documentation for services provided, such
as sign- in sheets. The regulation at 34 C.F.R. § 643.32(c)(3) requires grantees to maintain
documentation to support the services rendered.

Some Talent Search Participants Claimed Did Not Receive an Eligible Service

We selected a random sample of 50 names out of 1,177 from a list provided by the University
(the sample universe) of Talent Search participants claimed for the 2001-2002 budget period.
We reviewed the files of all 50 participants selected and found that, although eligibility was
documented for all 50, only 45 met the second part of the participant definition of receiving an
eligible service during the budget period. The five remaining participant files reviewed did not
contain documentation to support receipt of an eligible service during the budget period. We
project, from the results of the 50 files reviewed, that the University may have served about
1,0601 participants.

In December 2002, we reviewed the University’s 2001-2002 Annual Performance Report (APR)
and found that the University had reported 30 additional participants, over the sample universe of
1,177 provided to us during our site visit, as participants being served during the budget period.
We requested the 30 student files and performed a file review. From our review, we determined
that the additional 30 students claimed to be participants met the definition of a participant, and
therefore should be included in the University’s participant count.

1
    We are 90% confident that the participants receiving eligible services total 1,059 +/ - 7.75%.


                                                             2
Final Audit Report                                                             ED-OIG/A07-D0001



With the 30 additional students, we estimate that the University may have served about 1,090,
which is below the approved target population of 1,150. However, our estimate has a statistical
interval range, showing it is possible the University may have served its target population.
Therefore, our recommendation is limited to improving the University’s documentation of
services provided to Talent Search participants.

Recommendations:

We recommend that the Chief Financial Officer (in collaboration with the Assistant Secretary for
Postsecondary Education) require the University of New Hampshire to:

1.1 Improve established procedures to ensure that only those participants receiving eligible
    services are counted as Talent Search participants and that those services are properly
    documented.

                                       OTHER MATTERS

Citizenship was not documented in 11 of the 50 initial sample files reviewed or in 3 of the
additional 30 files reviewed. We were able to ascertain the citizenship status of all 14
participants questioned after the University obtained additional documentation of citizenship
status. We are not making any recommendations because the application form currently used by
the University’s Talent Search program captures citizenship data, however, earlier application
forms did not.

Auditee Response and OIG Comments

The University “recognizes that more complete documentation is required.” Moreover, the
University reported that it has taken appropriate action by revising its documentation of services
process and its review of student records process.

However, the University disagreed that the services provided to the participants we cited as
exceptions in our sample were not eligible and documented because it believes, “Each of the five
participants determined to not have been provided an eligible service did, in- fact, receive at least
two eligible services.” The University noted, in its response for 2 of the 5 exceptions, that
advisors failed to check off the boxes under “ETS Services Provided” which might affirm that
service was provided to those students. We do not consider the Final Follow-Up form, upon




                                                  3
Final Audit Report                                                                          ED-OIG/A07-D0001


which the “boxes” are located, as a service or documentation to support receipt of an eligible
service. 2

For all five of our exceptions, the University stated that contact sheets were not completed by
advisors as required by the University’s Talent Search policies and procedures: “A contact sheet
needs to be written every time a student is seen.” The director and staff repeated this procedural
policy when interviewed.

During our fieldwork, Talent Search officials pointed out packets of grade-appropriate materials
as described by the University in its response. If advisors did thoroughly review the packets with
individual students, as the University contends in its response, no supporting documentation (i.e.,
note to contact sheet) was provided to us at the time of our file review or in conjunction with its
response to our Draft Report. Therefore, we maintain, based on the results of our audit, that five
of the 50 student files we reviewed did not include documentation to support receipt of an
eligible service during the 2001-2002 budget period.

                                                BACKGROUND

Title IV of the Higher Education Act of 1965, as amended (20 U.S.C. 1070a-11 and 12),
authorizes the Talent Search program, one of the Department’s TRIO programs. The Talent
Search program is go verned by the regulations codified in 34 C.F.R. Part 643. All regulatory
citations in the report are to the codification in effect as of July 1, 2001.

The Talent Search program provides grants to projects designed to (1) identify qualified youths
with potential for education at the postsecondary level and encourages them to complete
secondary school and undertake a program of postsecondary education; (2) publicize the
availability of student financial assistance for persons who seek to pursue postsecondary
education; and (3) encourage persons who have not completed education programs at the
secondary level, but who have the ability to do so to reenter these programs (34 C.F.R. § 643.1).

The University of New Hampshire is located in Durham, New Hampshire. It was founded in
1866 and is a public research institution with undergraduate and graduate programs. The
University of New Hampshire (Durham) is one of five main campuses of the University System
of New Hampshire. The undergraduate student population at the University is 10,500.



2
  During the review, we determined that the Final Follow-Up form merely provides summary information. The
form captures the current and next year’s grade level, whether or not a parent attended a school related activity, next
year’s courses, career interests of the student, educational plans of the student, and ETS (Educational Talent Search)
services provided.


                                                           4
Final Audit Report	                                                          ED-OIG/A07-D0001


The University was awarded a four- year Talent Search grant covering the performance period
September 1, 1998, through August 31, 2002 (P044A980646). For the 2001-2002 budget period,
the University was awarded $439,862, and a $10,000 supplemental technology grant awarded to
all Talent Search projects. The University has participated in the Talent Search program since
1969 and is the sole Talent Search program in the state of New Hampshire. The Talent Search
program serves 50 high schools and 8 middle schools covering every county in the state of New
Hampshire. The county-based outreach staff lives in their respective target area, which serves
both urban and rural populations.

                   AUDIT OBJECTIVE, SCOPE AND METHODOLOGY

The objective of our audit was to determine if the University of New Hampshire administered
the Talent Search program in accordance with the law and specific Talent Search regulations
governing the documentation of participant eligibility. Specifically, we sought to determine
whether participants met the twofold requirements of (1) eligibility and (2) receipt of eligible
services during the budget period.

To accomplish our objective, we

   •	 reviewed applicable Federal law and regulations,
   •	 reviewed files relating to the Talent Search project at the University and at the 

      Department’s TRIO program office located in Washington, D.C., 

   •	 interviewed University and Department of Education personnel,
   •	 determined whether the TRIO cluster had been audited by the University’s Certified
      Public Accountants,
   •	 obtained and analyzed documents related to the Talent Search project at the University
      (e.g., organization chart, University policies and procedures),
   •	 randomly selected and reviewed 50 Talent Search participant files from a universe of
      1,177 to test participant eligibility and documentation of eligible service, and
   •	 reviewed the 30 additional student files to test participant eligibility and documentation
      of eligible service.

We relied upon the population list provided to us by University officials for drawing our sample.
We tested the population list for accuracy and completeness by comparing source records to the
population list and the population list to source records. Based on this test, we concluded the
population data was sufficiently reliable to be used for a sample population of claimed




                                                 5
Final Audit Report                                                                           ED-OIG/A07-D0001


participants. 3 An extract of payment and award data from the Department’s Grants and
Payments System (GAPS) was used to corroborate information obtained from the University’s
accounting system. We found that the University’s accounting data was sufficiently reliable for
our audit purposes.

The audit covered the 2001-2002 grant budget period (September 1, 2001, through August 31,
2002). We visited the Department’s TRIO program offices located in Washington D.C. from
July 31, 2002, to August 2, 2002. Fieldwork was conducted at the University of New Hampshire
from October 15, 2002, to October 21, 2002. We held an exit conference with University
officials on October 21, 2002. Our audit was conducted in accordance with generally accepted
government auditing standards appropriate to the scope of review described above.

                          STATEMENT ON MANAGEMENT CONTROLS

As part of our review we assessed the system of management controls, policies, procedures, and
practices applicable to the University of New Hampshire’s administration of the Talent Search
program. Our assessment was performed to determine the level of control risk for determining
the nature, extent, and timing of our substantive tests to accomplish the audit objectives.

For the purpose of this report, we assessed and classified the significant controls into the
following categories:

    •    Services provided to participants
    •    Participant eligibility
    •    Program record maintenance

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the management controls.
However, our assessment disclosed management control weaknesses, which adversely affected
the University of New Hampshire’s ability to administer the Talent Search program. These
weaknesses resulted in noncompliance with Federal regulations related to documentation of
participant services and citizenship status. These weaknesses and their effects are fully discussed
in the AUDIT RESULTS section of this report.




3
 The additional 30 participants did not affect data reliability because they were not in the originally claimed
population, but were discovered afterwards by the University.


                                                           6
Final Audit Report 	                                                        ED-OIG/A07-DOOOl


                             ADMINISTRATIVE MATTERS 


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions ofthe Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

                   Jack Martin 

                   Chief Financial Officer 

                   Office of the Chief Financial Officer 

                   U.S. Department of Education 

                   400 Maryland Avenue, SW 

                   Washington, DC 20202 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom ofInformation Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.

Sincerely,

lA.:).~~,--
William Allen
Regional Inspector General for Audit




Attachment

cc: 	          Jack Martin, Chief Financial Officer
               Sally Stroup, Assistant Secretary, Office of Postsecondary Education


                                                 7
               UNIVERSITY                     of NEW HAMPSHIRE 



                                                           June 23, 2003


u.s. Department of Education
Office of Inspector General
8930 Ward Parkway, Suite 2401
Kansas City, MO 64114-3302

ATTN: 	      William Allen
             Regional Inspector General for Audit

Subject: 	   Draft Audit Report (Control Number ED-OIG/A07DOOOI)

Dear Mr. Allen:

       We are in receipt of the referenced draft audit report in which you present the results of the
audit performed by your office of the Educational Talent Search Program (ETSP) at the
University of New Hampshire (UNH) during the period from October 15, 2002 through October
21,2002. (The audit covered the grant budget period September 1, 2001, through August 31,
2(02). We greatly appreciate the opportunity to respond to the draft audit findings as presented
in the report.

Audit Results as Stated in the Draft Report:

   • 	 The UNH ETSP was funded to serve 1150 participants during the budget year under
       review
   • 	 Selected a random sample of 50 names out of 1,177 (sample universe) from a list
       provided by the UNH of ETSP participants claimed for the 2001-2002 budget period
   • 	 Eligibility was documented for all 50 participants selected
   • 	 Only 45 of the 50 received an eligible service during the budget period
   • 	 The ETSP Director confirmed that the five noted exceptions did not receive a project
       service during the budget period
   • 	 Based on the sample, projected that the UNH served 1,059 participants
   • 	 Subsequent review of the UNH 200 1-2002 Annual Performance Report resulted in the
       identification and review of the files of 30 additional participants. Each of the 30 was
       determined to be qualified participants and was added to the University's participant
       count by the Department of Education.
   • 	 The. total number of participants served by the UNH during the budget period was 

       determined to be 1,089 (1059 based on the sample, and 30 additional based on 

       subsequent review) by the Department of Education 




                                         OFFICE OF THE PRESIDENT 

    Thompson Hall   105 Main Street   Durham, New Hampshire 03824 Phone: 6°3-862-245°   Fax: 603-862-3060 

                                               -2­

Recommendations as Stated in the Draft Report:

       1.1 UNH is to refund $23,300, a pro-rata share of the $439,862 expended for its ETSP for
           the 2001-2002 budget period.

       1.2 UNHis to follow established procedures to ensure that only those participants
           receiving eligible services are counted as ETSP participants and that those services
           are properly documented.

UNH Response to Results of Audit and Recommendations:

   1) 	 The UNHETSP provided eligible services to a total of 1,207 participants during the
        budget period under review. This figure is based upon the full sample universe (1,177)
        provided to the Department of Education plus the 30 additional participants deemed to be
       eligible during the course of the Department of Education review.

   2) 	 The UNH ETSP Director did not confinn and does not concur with the finding that 5 of
       the sampled claimed participants did not receive an eligible service.

   3) 	 Each of the five participants detennined to not have been provided an eligible service did,
       in-fact, receive at least two eligible services. Please note that upon admittance to the ETS
       program each student is given a packet full of grade appropriate career, college, and study
       skills materials which the advisor thoroughly reviews with hirn/her. The services
       provided were not completely documented and as a result were not evident to the auditors
       during the course of their review. The details supporting this position are as follows:

   Student          Admitted        File Started       Date(s) Seen            Services
                   by Advisor          atETS              byETS                Provided
                                       Office            Advisor
                     4/29/02           5/9102             4/29/02             Counseling
                                                                           Academic advising
                                                       5/27/02
Issue: No contact sheet completed by advisor on 4/29/02; "Action Plan" and "Fina1·
Follow-Up" completed wlstudent over the phone, therefore fonn is not signed by the
srude~nt~.______.­ ________~__________~____________~__~__~__~
                      3/6102           3114/02             3/6/02             Counseling
                                                          4/17/02          ACademic advising



                                        4/3/02                                Counseling
                                                                           Academic advising

Issue: No contact sheet completed by advisor on 3/29/02; "Action Plan" completed and
signed by student on 5110102 visit, but not actually signed by advisor until 614/02.
Advisor completed requisite "Final Follow Up" fonn but failed to check off boxes under
''ETS Services Provided".
                  ~4~/~10~ron2-'--A;~~29~rom2~r-~4dJl1t10~ro~2~lr~~Ung~
                     4/10/02           4/29/02            4110102          Academic advising
                                                                              Counseling
                                                          5/17/02
Issue: No contact sheet completed by advisor on 4110/02; however "Personal Inventory"
completed and signed by student and advisor on 5117/02 as well as "Final Follow-Up"
form.
                     5/23/02            6/7102            5/23/02             Counseling
                                                                           Academic advising
                                                                                                      ...
Issue: No contact sheet completed by advisor on 5/23/02. "Final Follow-Up" fonn
completed on 5/23/02, but advisor failed to check offboxes under "ETS Services
Provided".

   4) 	 There is no refund due the Department of Education for ETSP funding provided for the
        project period under review. The UNH ETSP in-fact did exceed the required number of
        participants to be provided eligible services by 57.

   5) 	 The UNH ETSP office recognizes that more complete documentation is required in order
        to track and report compliance with Talent Search Program requirements and has taken
        appropriate actions. Advisors now complete a separate contact sheet upon admitting a
        new student to the program which fully documents the provision of services provided to
        the student on the date helshe was admitted to the program. Additionally, all students'
        records now receive a final "record review audit" by the Director, Associate Director, or
        Middle School Coordinator at the end of each academic year to ensure that all services
        provided to each student have been properly documented and student eligibility is again
        verified.

"Other Matters" as Stated in Draft Audit Report:

   • 	 Citizenship was not documented in 11 of the 50 initial sample files reviewed or in 3 of
       the additional 30 files reviewed. The auditors were able to ascertain the citizenship status
       of all 14 participants questioned after the University obtained additional documentation
       of citizenship status.
   • 	 Not making any recommendation because the application form currently used by the
       UNH's Talent Search program captures citizenship data whereas forms previously in use,
       did not.

UNH Response to "Other Matters"

    •   It should be noted that as of June 1,2003, the citizenship status of 100% of current
        (active) students has been documented and such documentation exists in each student
        folder.

We trust that our responses have satisfactorily addressed each of the issues raised in the draft
audit report and that this matter can now be resolved without further delay and certainly without
any requirement for the refunding ofETSP funds by the University of New Hampshire. The
University remains dedicated to the mission of the ETSP and looks forward to continued support
and participation.
                                             -4­

Should you have any questions regarding this matter, please contact Hugh Christian, Manager of
Sponsored Programs Accounting at (603) 862-0609 or Marsha Johns, Talent Search Program
Director at (603) 862-3266.




                                                    Ann Weaver Hart
                                                    President
                                                    University of New Hampshire

C: 	   Hugh Christian, Manager of Sponsored Programs Accounting (UNH)
       Marsha Johns, Director, Talent Search Program (UNH)
       Mark Rubinstein, Vice Provost - Academic Achievement (UNH)
